CREDIT CARD AGREEMENT

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE DESIGNATED BY YOU UNDER THE TERMS OF THIS
AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS EVANSVILLE TEACHERS FEDERAL CREDIT UNION AND LIBERTY FINANCIAL, A DIVISION OF EVANSVILLE TEACHERS FEDERAL CREDIT UNION, OR ITS SUCCESSORS. BY
USING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL
INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO
SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO
AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR
FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE
AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account that would lose
special tax treatment under state or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure your obligations
under this Agreement, unless that other collateral is your principal residence or non-purchase
money household goods.
Using Your Card. You can purchase or lease goods and services from any merchant who honors
your Card, and you may obtain cash advances from financial institutions and ATM machines that
accept the Card, up to your maximum credit limit and subject to daily limits. You agree not to present
your Card or obtain a cash advance for any extension of credit in excess of your available credit limit;
however, if you do exceed your credit limit, you agree to make immediate payment sufficient to bring
the balance below the credit limit. Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to provide identification. If our system
is not working, we may not be able to authorize a transaction, even though you have sufficient credit
available. Also, for security reasons, we may block the use of your Card in certain countries or
geographic areas. We will have no liability to you or others if any of these events occur.
Personal Identification Number (PIN). We may issue a Personal Identification Number (PIN) for use
with your Card. This PIN is confidential and should not be disclosed to anyone. You may use your PIN
and your Card to access your account, and all sums advanced will be added to your account balance.
In the event a use of your PIN constitutes an Electronic Funds Transfer, the terms and conditions of
your Electronic Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all purchases, cash advances, and
balance transfers made by you or anyone whom you authorize to use the Card; (b) all Interest
Charges and all other charges or fees; (c) collection costs and attorney's fees as permitted by
applicable law, and any costs incurred in the recovery of the Card; and (d) credit in excess of your
credit limit that we may extend to you.
Illegal Transactions. You agree that your Card and account will not be used to make or facilitate any
illegal transactions as determined by applicable law; and that any such use will constitute an event of
default under this Agreement. We may decline any transaction that we believe to be illegal under
applicable law, including but not limited to any transaction involving or relating to any gambling activity.
You agree that we will have no liability or responsibility for any such use by you or any authorized
user(s); or for declining any such transaction. You further agree to indemnify and hold us harmless
from any suits, liability, damages or adverse action of any kind that results directly or indirectly from
such illegal use. You promise to pay us any and all amounts owing on your Card for any transactions
made by you, even if the transaction is determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for the repayment of amounts
owed, regardless of who initiated any transaction under the account.
Others Using Your Account. If you allow anyone else to use your account, you will be liable for all
credit extended to such persons. You promise to pay for all purchases and advances made by anyone
you authorize to use your account, whether or not you notify us that he or she will be using it. If
someone else is authorized to use your account and you want to end that person's privilege, you must
notify us in writing, and if he or she has a Card, you must return that Card with your written notice for it
to be effective.
Ownership of Card. Your Card remains our property and may be cancelled by us at any time without
notice. You agree to surrender your Card and to discontinue use of the account immediately upon our
request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to you at the time you open your
account and as may be changed from time to time in accordance with applicable law. Average Daily
Balance including new transactions (applies to Cash Advances): Interest Charges will accrue on your
average daily balance outstanding during the month. To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance transfers or other
advances, and subtract any payments, unpaid interest charges, and unpaid late charges. This gives
us the daily balance. Then, we add up all the daily balances for the billing cycle and divide that by the
number of days in the billing cycle. We then multiply that by the periodic rate corresponding to the
Annual Percentage Rate on your account. If you have different rates for purchases, cash advances or
balance transfers, separate average daily balances for each will be calculated and the appropriate
periodic rate is then applied to each. Average Daily Balance excluding new transactions (applies to
Purchases and Balance Transfers): Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the beginning balance each
day (excluding new purchases), and subtract any payments and credits. This gives us the daily
balance. Then, we add up all the daily balances for the billing cycle and divide that by the number of
days in the billing cycle. We then multiply that by the periodic rate corresponding to the Annual
Percentage Rate on your account.
9011 LASER FPDF FI19855 Rev 7-2018

Grace Period on Purchases Only: You can avoid Interest Charges on purchases by paying the full
amount of the new balance for purchases each month by the date on which the payment is due.
Otherwise, the new balance of your account, and subsequent advances from the date they are posted
to the account, will be subject to an Interest Charge. You cannot avoid Interest Charges on cash
advances and balance transfers; even if you pay the entire cash advance balance or balance transfer
balance by the payment due date, you will incur the Interest Charges accrued from the date the cash
advance or balance transfer is posted to your account.
Fees. In addition to the Interest Charges set forth above, you agree to also pay any and all fees that
you incur as disclosed to you on your Truth-in-Lending Statement or similar disclosures (as may be
amended from time to time), or as disclosed to you during the term of your Card.
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree to notify us
immediately if your Card is ever lost or stolen or if an unauthorized use may have occurred.
"Unauthorized use" means the use of the Card by someone other than you who does not have actual,
implied or apparent authority for such use, and from which you receive no benefit. The telephone
number to call is (800) 800-9271. You agree to follow up your call with notice in writing to us at: PO
Box 5129, Evansville, IN 47716. You also agree to assist us in determining the facts, circumstances
and other pertinent information relating to any loss, theft or possible unauthorized use of your Card
and comply with such procedures as we may require in connection with our investigation. You will
have no liability for Mastercard® transactions not authorized by you, provided that you have exercised
reasonable care in safeguarding the Card from risk of loss or theft, and upon becoming aware of such
loss or theft, you promptly report the loss or theft to us.
Minimum Payment Due; Crediting of Payments. Payments are due in the amount and on the date
disclosed on your billing statement. If your payment is received by us on a business day at the
address and by the time designated on the billing statement, it will be credited to your account on the
date of receipt. If payment is made at any location other than the address designated on the periodic
statement, credit for such payment may be delayed up to five (5) days. Payments will be applied in
any order we determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will be in default if: (1) you fail to
make any payment on time; (2) if you fail to keep any promises you have made under this Agreement
or under other Agreements you have with us; (3) if you die; (4) if you file a petition in bankruptcy or
have a bankruptcy petition filed against you, or if you become involved in any insolvency, receivership
or custodial proceeding; (5) if anyone attempts to take any of your funds held by us via legal process
or if you have a judgment or tax lien filed against you; (6) if you make any false, inaccurate, or
misleading statements in any credit application or credit update; or (7) if we, in good faith, believe that
your ability to repay what you owe is or soon will be impaired, or that you are unwilling to make your
payments.
If you are in default, we have the right to demand immediate payment of your full account balance
without giving you notice. If immediate payment is demanded, you agree to continue paying interest
charges and fees until what you owe has been paid, and any shares that were given as security for
your account may be applied towards what you owe. You agree to pay all reasonable costs of
collection, including court costs and attorney's fees, and any costs incurred in the recovery of the
Card, subject to applicable law. Even if your unpaid balance is less than your credit limit, you will have
no credit available during any time that any aspect of your account is in default.
Suspension of electronic services and access to share or deposit accounts. Subject to
applicable law, we may suspend some or all electronic services and access to your checking or other
account(s) if you become delinquent on any of your credit card or deposit obligations to us or you
cause a loss to us. We shall not be liable to you in any regard in connection with such suspension of
services.
Additional Benefits/Card Enhancements. We may from time to time offer additional services to
your Account at no additional cost to you. You understand that we are not obligated to offer such
services and may withdraw or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you which may be used for any
purpose other than making a payment for credit to your account. By signing such check, you authorize
us to pay the item for the amount indicated and post such amount as a cash advance to your account.
We do not have to pay any item which would cause the outstanding balance in your account to
exceed your credit limit.
Credit Information. We may from time to time request personal information from you or obtain credit
reports from the credit reporting agencies for the purpose of updating your credit status. Your failure to
provide such information when requested by us may result in suspension of credit privileges under this
Agreement, including your ability to obtain any future advances by any means. You authorize us to
investigate your credit standing when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureau and creditors who inquire about your credit
standing.
Foreign Transactions; Currency Conversion. Purchases and cash advances made in foreign
currencies will be billed to you in U.S. dollars. The conversion rate in dollars will be a rate selected by
the card company from a range of rates available in wholesale currency markets for the applicable
central processing date, which rate may vary from the rate the card company itself receives, or the
government-mandated rate in effect for the applicable central processing date in each instance. All
transactions processed outside of the United States (which may include internet transactions) will be
charged a foreign transaction fee in the amount disclosed on your Truth-in-Lending Statement (as
amended from time to time).

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

IN THIS AGREEMENT, "YOU" AND "YOUR" MEAN ANY PERSON WHO ACCEPTS THIS AGREEMENT OR USES THE CARD. THE "CARD" MEANS ANY CREDIT CARD ISSUED TO YOU OR THOSE DESIGNATED BY YOU UNDER THE TERMS OF THIS
AGREEMENT. "WE", "US", "OUR" AND THE "CREDIT UNION" MEANS EVANSVILLE TEACHERS FEDERAL CREDIT UNION AND LIBERTY FINANCIAL, A DIVISION OF EVANSVILLE TEACHERS FEDERAL CREDIT UNION, OR ITS SUCCESSORS. BY
USING YOUR CARD, YOU AGREE TO ALL OF THE TERMS AND CONDITIONS SET FORTH HEREIN.

Termination; Change-in-Terms. We may, by written notice, terminate this Agreement at any time,
subject to applicable law. You may terminate this Agreement by written notice. Termination by either
party shall not affect your obligation to repay any balance on your account resulting from use of the
Card as well as Interest Charges and fees incurred. We may change the terms of this Agreement,
including the method of calculating the periodic rate, at any time, by written notice, subject to
applicable law. If our credit review indicates that your credit status has deteriorated, we may decrease
your credit limit. Use of the Card constitutes agreement and acceptance of any change in terms,
unless applicable law requires otherwise. Our failure to exercise any of our rights or to take any action
shall not constitute a waiver of those rights, or an amendment or change in any of the terms of this
Agreement.
Late or Partial Payments. Any payment that delays the reduction of your balance will increase your
total interest costs. Partial payments or prepayments will not delay your next scheduled payment - you
will still need to make the minimum scheduled payment by the next scheduled due date to keep your
account current. We may accept late payments, partial payments, checks or money orders marked
"payment in full" and such action shall not constitute final settlement of your account or a waiver or
forgiveness of any amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related agreement if we delay enforcing
them. If any provision of this or any related agreement is determined to be unenforceable or invalid, all
other provisions remain in full force and effect.
Returns and Adjustments. Merchants and others who honor the Card may give credit for returns or
adjustments, and they will do so by submitting a credit slip which will be posted to your account. If
your credits and payments exceed what you owe us, the amount will be applied against future
purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded upon
your written or verbal request.

Merchant Disputes. We are not responsible for the refusal of any merchant or financial institution to
honor your Card. Also, we are not responsible for goods or services that you purchase with the Card
unless: (a) your purchase was made in response to an advertisement we sent or participated in
sending you; or (b) your purchase cost more than $50 and was made from a merchant in your state or
within 100 miles of your home; and only if you have made a good faith attempt, but have been unable
to obtain satisfaction from the merchant. You must resolve all other disputes directly with the
merchant. We do not warrant any merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at the most recent postal
address or e-mail address (if you have elected to receive such documents via electronic means) you
have given us. Notice sent to any one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you change your address for any
reason. In order to prevent identity theft, your identity may need to be verified before we act upon the
notification.
Copy Received. You acknowledge that you have received a copy of this Agreement.
Governing Law. This Agreement shall be construed under federal law and state law in the state in
which we are primarily located, and the venue shall be located in the county and state in which we are
primarily located. Operating regulations of Mastercard® may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash advance, convenience check,
credit or other slips you sign or receive may contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final expression of the agreement
between you and the Credit Union. This written agreement may not be contradicted by evidence of
any oral agreement.

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The Military Lending Act applies to this credit card account if at the time you establish the account you are an active member of the military or a dependent (as defined in the Military Lending
Act, 10 U.S.C. 987 and implementing regulations). The following terms and conditions amend your credit card agreement and apply during any period(s) in which you are active military or a
dependent under those definitions. They do not apply when you are not an active duty member of the military or a dependent:
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: the costs associated with credit insurance premiums or debt protection fees; fees for ancillary products sold in connection with the credit transaction; any application fee or
participation fee unless they are bona fide and reasonable under the MLA. To receive this notice verbally, please call 1-800-800-9271 during our normal business hours.
2. Advances will not be secured by a consensual lien on shares or deposits in any of your share or deposit accounts unless you specifically agree to establish a secured share or deposit
account in connection with this credit card account (“Secured Account”). Only funds deposited into the Secured Account after the credit card is established will secure advances. Any
cross-collateralization provision contained in your credit or membership documents will not apply to the Secured Account or your other share or deposit accounts for this account.
However, with regard to this credit card account, we still reserve our rights regarding statutory liens and administrative freeze under federal or state law.
Any contract terms in your credit card, security, or membership agreements that contradict the above shall be inapplicable.
3. Your credit card account is not subject to mandatory arbitration and therefore any reference to mandatory arbitration in connection with this credit card account does not apply.
YOUR BILLING RIGHTS - KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es) listed on your
statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that
amount.
• The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.
• We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not pay
the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current
mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if your purchase was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances
from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.

page 2 of 2

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the cards are
accurate as of _______________ . You can contact us toll free at 800-800-9271 or the address above to inquire if any changes
occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
PLATINUM REWARDS
Annual Percentage Rate
(APR) for Purchases

PLATINUM PRIME PLUS

1.99%

1.99%

Introductory APR for six months as of account
opening. After that, your Standard APR will be

Introductory APR for six months as of account
opening. After that, your Standard APR will be

______% - ______%

______% - ______%

depending on your credit history. This APR will depending on your credit history. This APR will
vary with the market based on the Prime Rate. vary with the market based on the Prime Rate.
APR for Balance Transfers

0% Introductory APR for six months as of
account opening. After that, your Standard
APR will be ______% - ______% depending
on your credit history. This APR will vary with
the market based on the Prime Rate.

0% Introductory APR for six months as of
account opening. After that, your Standard
APR will be ______% - ______% depending
on your credit history. This APR will vary with
the market based on the Prime Rate.

APR for Cash Advances

______% - ______% depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

______% - ______% depending on your
credit history. This APR will vary with the
market based on the Prime Rate.

Penalty APR and When it
Applies

18% This APR may be applied to your account if you make a payment that is late 60 days or
more.
How Long Will the Penalty APR Apply? If we increase your APRs due to a late payment,
we may keep them at this higher level on existing and new balances until you make six
consecutive on-time payments.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you
interest on purchases if you pay your entire new purchase balance by the due date each
month. We will begin charging interest on cash advances and balance transfers on the date
the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain
your Account
- Annual Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None
3% of the amount of each cash advance or $5.00, whichever is greater (maximum: $20.00)
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
0.8% of each transaction in U.S. dollars if the transaction does not involve a currency conversion
Up to $27.00 if your payment is late 1 day or more.
None
Up to $27.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)" for cash
advances and use a method called "average daily balance (excluding new purchases)" for purchases and balance transfers.
Loss of Introductory Rate: We may end your Introductory Rate and apply the Penalty APR disclosed above if you make a late
payment.
9009 LASER FPDF FI19853 Rev 10-2018

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

